                     OFFICE OF
             THE INSPECTOR GENERAL
                   U.S. NUCLEAR
             REGULATORY COMMISSION


                          Audit of NRC’s High-Level
                               Waste Program

                      OIG-05-A-10      February 24, 2005




                        AUDIT REPORT




All publicly available OIG reports (including this report) are accessible through
                              NRC’s Web site at:
             http:/www.nrc.gov/reading-rm/doc-collections/insp-gen/
                                             February 24, 2005




MEMORANDUM TO:                Luis A. Reyes
                              Executive Director for Operations



FROM:                         Stephen D. Dingbaum/RA/
                              Assistant Inspector General for Audits


SUBJECT:                      AUDIT OF NRC’S HIGH-LEVEL WASTE PROGRAM
                              (OIG-05-A-10)


Attached is the Office of the Inspector General’s (OIG) audit report titled, Audit of NRC’s
High-Level Waste Program.

This report reflects the results of an OIG audit to determine if the Nuclear Regulatory
Commission (NRC) is properly prepared to meet its Nuclear Waste Policy Act (NWPA)
pre-licensing statutory requirements for a geologic high-level waste repository at Yucca
Mountain in Nevada. The agency’s high-level waste (HLW) program satisfies NWPA
responsibilities through the promulgation and implementation of the Code of Federal
Regulations Title 10 Part 63. The audit found that while NRC has been carrying out its
pre-licensing responsibilities per the NWPA, its communications approach needs
improvement. The agency’s HLW communications are not always effective because
NRC lacks a holistic, agencywide communications approach. Consequently,
stakeholders do not always perceive agency communications as being clear and open.
NRC also faces uncertainties surrounding the Yucca Mountain project that are beyond
the agency’s control. Such uncertainties may impact the agency’s ability to review the
Department of Energy’s license application for a geologic HLW repository at Yucca
Mountain.

During an exit conference on December 15, 2004, NRC officials provided informal
comments concerning the draft audit report. Subsequent to that meeting, OIG met with
agency senior managers to address issues and comments needing further clarification
and/or explanation. Comments your office provided at the exit meeting, during
subsequent discussions, and in your February 1, 2005, written response to the formal
draft report have been incorporated, as appropriate, in our final report. Appendix C
contains your written response in its entirety. Appendix D contains our analysis of the
agency’s formal comments.

If you have any questions, please call Russ Irish at 415-5972 or me at 415-5915.

Attachment: As stated
Distribution


John T. Larkins, Executive Director, Advisory Committee on Reactor
 Safeguards/Advisory Committee on Nuclear Waste
G. Paul Bollwerk, III, Chief Administrative Judge, Atomic Safety and
 Licensing Board Panel
Karen D. Cyr, General Counsel
John F. Cordes, Jr., Director, Office of Commission Appellate Adjudication
Jesse L. Funches, Chief Financial Officer
Janice Dunn Lee, Director, Office of International Programs
William N. Outlaw, Director of Communications
Dennis K. Rathbun, Director, Office of Congressional Affairs
Eliot B. Brenner, Director, Office of Public Affairs
Annette Vietti-Cook, Secretary of the Commission
Jacqueline E. Silber, Deputy Executive Director for Information Services
   and Administration and Chief Information Officer, OEDO
William F. Kane, Deputy Executive Director for Homeland Protection
  and Preparedness, OEDO
Martin J. Virgilio, Deputy Executive Director for Materials, Research
  and State Programs, OEDO
Ellis W. Merschoff, Deputy Executive Director for Reactor Programs, OEDO
William M. Dean, Assistant for Operations, OEDO
Timothy F. Hagan, Director, Office of Administration
Frank J. Congel, Director, Office of Enforcement
Guy P. Caputo, Director, Office of Investigations
Edward T. Baker, Director, Office of Information Services
Paul E. Bird, Director, Office of Human Resources
Corenthis B. Kelley, Director, Office of Small Business and Civil Rights
Jack R. Strosnider, Director, Office of Nuclear Material Safety and Safeguards
James E. Dyer, Director, Office of Nuclear Reactor Regulation
Carl J. Paperiello, Director, Office of Nuclear Regulatory Research
Paul H. Lohaus, Director, Office of State and Tribal Programs
Roy P. Zimmerman, Director, Office of Nuclear Security and Incident Response
Samuel J. Collins, Regional Administrator, Region I
William D. Travers, Regional Administrator, Region II
James L. Caldwell, Regional Administrator, Region III
Bruce S. Mallett, Regional Administrator, Region IV
Office of Public Affairs, Region I
Office of Public Affairs, Region II
Office of Public Affairs, Region IV
                                                  Audit of NRC’s High-Level Waste Program



EXECUTIVE SUMMARY

BACKGROUND

     The Nuclear Regulatory Commission’s (NRC) mission is the regulation of
     the nation’s civilian use of byproduct, source, and special nuclear material
     to ensure adequate protection of public health and safety, the promotion of
     the common defense and security, and the protection of the environment.
     NRC is also responsible for providing regulatory oversight of spent nuclear
     fuel from commercial nuclear reactors that must be stored and finally
     disposed of in a way that protects the public. Today, spent nuclear fuel is
     stored at plant sites either in steel-lined vaults filled with water [spent fuel
     pools] or steel-and-concrete containers.

     In 1977, the Federal government prohibited nuclear fuel reprocessing due
     to nuclear proliferation concerns. President Reagan lifted this ban, but no
     serious reprocessing efforts have been pursued in the United States.
     Because utilities believed that reprocessing would be available, they did
     not have spent fuel pools sufficiently large to hold all of the spent nuclear
     fuel they would be generating over the course of the plants’ licensed
     lifetime. According to the Nuclear Energy Institute (NEI), by the end of
     2006, about 60 commercial nuclear reactors will have no more storage
     space in their spent fuel pools. NEI contends that building new spent fuel
     pools is costly and almost impossible to fit into existing plant layouts and
     building dry storage facilities is very costly.

     In 1982, Congress passed the Nuclear Waste Policy Act (NWPA) and
     amended it in 1987. The NWPA, as amended, outlines the process for the
     siting and construction of a geologic high-level waste (HLW) repository.
     Under the NWPA, the Department of Energy (DOE) is responsible for
     evaluating a repository site at Yucca Mountain, and designing,
     constructing, and operating the facility. NRC’s role is to develop a
     regulatory framework for evaluating a license application for the repository
     and, thereafter, to regulate DOE’s activities. NRC is also charged with the
     duty to issue a final decision approving or disapproving the issuance of a
     construction authorization for building the proposed repository. NRC is to
     issue a license to DOE only if DOE can demonstrate that it can construct
     and operate a repository safely and in compliance with NRC’s regulations.

PURPOSE

     The purpose of this audit was to determine if NRC is properly prepared to
     meet its pre-licensing statutory requirements per the NWPA.




                                         i
                                                Audit of NRC’s High-Level Waste Program



RESULTS IN BRIEF

      While NRC has been carrying out its pre-licensing responsibilities per the
      NWPA, its communications approach needs improvement. NRC’s HLW
      program satisfies the NWPA responsibilities through the agency’s
      promulgation and implementation of the Code of Federal Regulations title
      10 part 63 (10 CFR 63). Yet, NRC’s HLW communications are not always
      effective because NRC lacks a holistic, agencywide communications
      approach. Consequently, stakeholders do not always perceive NRC’s
      communications as being clear and open. NRC also faces uncertainties
      surrounding the Yucca Mountain project that are beyond the agency’s
      control. Such uncertainties may impact NRC’s ability to review DOE’s
      license application for a geologic HLW repository at Yucca Mountain.

RECOMMENDATION

      This report makes one recommendation to the Executive Director for
      Operations to enhance the agency’s internal and external HLW
      communications.

AGENCY COMMENTS

      The agency basically agrees with the Office of the Inspector General’s
      (OIG) recommendation. On February 1, 2005, the Executive Director for
      Operations provided comments concerning the draft audit report. OIG
      modified the report as appropriate in response to these comments.
      Appendix C contains NRC’s formal comments and Appendix D contains
      OIG’s specific response to each.




                                       ii
                                             Audit of NRC’s High-Level Waste Program



ABBREVIATIONS AND ACRONYMS

       Atomic Safety and Licensing Board Panel                             ASLBP
       Center for Nuclear Waste Regulatory Analyses                      CNWRA
       Code of Federal Regulations                                            CFR
       Department of Energy                                                   DOE
       high-level waste                                                      HLW
       key technical issues                                                   KTIs
       management directive                                                    MD
       Nuclear Energy Institute                                                NEI
       Nuclear Regulatory Commission                                         NRC
       Nuclear Waste Policy Act of 1982                                    NWPA
       Office of Nuclear Material Safety and Safeguards                     NMSS
       Office of Public Affairs                                               OPA
       Office of State and Tribal Programs                                    STP
       Office of the General Counsel                                         OGC
       Office of the Inspector General                                        OIG




                                  iii
                         Audit of NRC’s High-Level Waste Program




[Page intentionally left blank.]




               iv
                                                                     Audit of NRC’s High-Level Waste Program




TABLE OF CONTENTS

EXECUTIVE SUMMARY ..................................................................................... i
ABBREVIATIONS AND ACRONYMS................................................................ iii
I.      BACKGROUND .......................................................................................1
II.     PURPOSE................................................................................................4
III.    FINDINGS ................................................................................................4
        A. HLW Program for Pre-Licensing Positioned to Meet Nuclear Waste
           Policy Act Requirements.....................................................................4

        B. HLW Communications Need Improvement.........................................7

        C. HLW Program Faces External Uncertainties ....................................16

IV.     SUMMARY AND CONCLUSION ...........................................................16
V.      AGENCY COMMENTS ..........................................................................17


APPENDICES
        A. SCOPE AND METHODOLOGY .......................................................19
        B. PRINCIPLES OF GOOD REGULATION ..........................................21
        C. AGENCY FORMAL COMMENTS .....................................................23
        D. DETAILED OIG ANALYSIS OF COMMENTS ..................................29




                                                        v
                     Audit of NRC’s High-Level Waste Program




[Page intentionally left blank.]




           vi
                                                                 Audit of NRC’s High-Level Waste Program



I. BACKGROUND

                  The mission of the NRC is the regulation of the nation’s civilian use
                  of byproduct, source, and special nuclear material to ensure
                  adequate protection of public health and safety, the promotion of
                  the common defense and security, and the protection of the
                  environment. As part of its mission, NRC is involved in providing
                  the regulatory oversight of spent nuclear fuel from commercial
                  nuclear reactors that must be stored and finally disposed of in a
                  way that protects the public for a very long time.1

                  According to NEI,2 “The country’s 103 commercial nuclear reactors
                  together produce about 2,000 metric tons of used fuel annually.”
                  Today, this used fuel is stored at plant sites, either in steel-lined
                  vaults filled with water [spent fuel pools] or steel-and-concrete
                  containers. DOE determined that, by the end of 2003, the United
                  States had accumulated about 49,000 metric tons of spent nuclear
                  fuel from nuclear reactors. In addition, there were about 22,000
                  canisters of solid defense-related radioactive waste. According to
                  DOE estimates, by 2035, the United States will have about 105,000
                  metric tons of radioactive waste.

                  Utilities designed commercial nuclear power plants under the
                  assumption that spent nuclear fuel would be reprocessed and not
                  held on their sites. However, in 1977, the Federal government
                  prohibited nuclear fuel reprocessing due to nuclear proliferation
                  concerns. President Reagan lifted this ban, but no serious
                  reprocessing efforts have been pursued in the United States.
                  Because utilities believed that reprocessing would be available,
                  they did not have spent fuel pools sufficiently large to hold all of the
                  spent nuclear fuel they would be generating over the course of the
                  plants’ licensed lifetime. According to NEI, by the end of 2006,
                  about 60 commercial nuclear reactors will have no more storage
                  space in their spent fuel pools.

                  NEI contends that building new spent fuel pools is not an option. It
                  is costly and almost impossible to fit a new structure into the
                  existing plant layout. A number of nuclear plants are storing used
                  fuel in large containers made of steel or steel-reinforced concrete.
                  The containers use materials like steel, concrete and lead (instead
                  of water) as a radiation shield. Depending on the design, a dry

1
  According to the Technical Bases for Yucca Mountain Standards report issued in 1995 by the Commission
on Geosciences, Environment and Resources, National Academy of Sciences, a time scale that is feasible
for most physical and geologic aspects of repository performance for long-term stability is on the order of
1,000,000 years.
2
  NEI is a policy organization with over 260 corporate members (including companies that operate nuclear
power plants). NEI's objective is to ensure the formation of policies that promote the beneficial uses of
nuclear energy and technologies in the United States and around the world.
                                                     1
                                                                 Audit of NRC’s High-Level Waste Program



                 container can hold from 7 to 56 fuel assemblies.3 However, NEI
                 indicates that building a dry storage facility at a plant site requires
                 an initial investment of $10-20 million. And, once the facility is
                 operational, it will cost $5-7 million a year to add more containers
                 as storage needs grow and to maintain the facility. Although NRC
                 determined that spent nuclear fuel could be stored safely at power
                 plant sites for 100 years, both NRC and Congress believed
                 permanent disposal was necessary.

                 Congress passed the NWPA in 1982 and amended it in 1987. The
                 NWPA, as amended, outlines the process for the siting and
                 construction of a geologic HLW repository. The NWPA also
                 assigned certain roles and responsibilities to different Federal
                 agencies. The NWPA, as amended, mandated to DOE the
                 responsibility for evaluating a repository site at Yucca Mountain,
                 and designing, constructing, and operating the facility. NRC’s role
                 is to develop a regulatory framework for evaluating a license
                 application for the repository and, thereafter, to regulate DOE’s
                 activities. The Environmental Protection Agency’s role is to issue
                 generally applicable standards for protection of the general
                 environment from offsite releases to which NRC regulations must
                 conform. Figure 1 is a diagram of the roles and interactions
                 between DOE and the agencies that are most actively involved with
                 DOE with regard to the NWPA.




3
 Fuel assemblies are clusters of fuel rods used to make up a reactor core. Fuel rods are long, slender
metal tubes that hold nuclear reactor fuel.
                                                     2
                                   Audit of NRC’s High-Level Waste Program



Figure 1




Under the NWPA, NRC is also charged with the duty to issue a final
decision approving or disapproving the issuance of a construction
authorization for building the proposed repository. Through its
Office of Nuclear Material Safety and Safeguards (NMSS), NRC is
to issue a license to DOE only if DOE can demonstrate that it can
construct and operate a repository safely and in compliance with
NRC’s regulations.




                         3
                                                                  Audit of NRC’s High-Level Waste Program



II. PURPOSE

                  The purpose of this audit was to determine if NRC is properly
                  prepared to meet its pre-licensing4 statutory requirements per the
                  NWPA. See Appendix A for more details on the scope limitations
                  and methodology of this audit.


III. FINDINGS

                  While NRC has been carrying out its pre-licensing responsibilities
                  per the NWPA, its communications approach needs improvement.
                  NRC’s HLW program satisfies the NWPA responsibilities through
                  the agency’s promulgation and implementation of 10 CFR 63. Yet,
                  NRC’s HLW communications are not always effective because
                  NRC lacks a holistic, agencywide communications approach.
                  Consequently, stakeholders do not always perceive NRC’s
                  communications as being clear and open. NRC also faces
                  uncertainties surrounding the Yucca Mountain project that are
                  beyond the agency’s control. Such uncertainties may impact
                  NRC’s ability to review DOE’s license application for a geologic
                  HLW repository at Yucca Mountain.

         A. HLW PROGRAM FOR PRE-LICENSING POSITIONED TO MEET
            NUCLEAR WASTE POLICY ACT REQUIREMENTS


                  The NWPA provides the statutory requirements regarding the
                  development and licensing of a geologic repository for high-level
                  nuclear waste. NRC has taken steps to position its HLW program
                  to meet NWPA requirements through the promulgation and
                  implementation of 10 CFR 635. Based on the requirements set
                  forth in 10 CFR 63, NRC developed more specific guidance to carry
                  out its role.




4
  For purposes of this report, pre-licensing refers to all activities conducted prior to NRC docketing DOE’s
license application.
5
   Note: The Environmental Protection Agency’s 10,000-year compliance period standard was vacated by
the United States Court of Appeals, District of Columbia Circuit Court on July 9, 2004, 373 F3d 1251 (2004).
Part 63 was also vacated to the extent it relied on the Environmental Protection Agency standard. Supreme
Court review of the court’s ruling was not sought. As of the date of this report, 10 CFR 63 has not been
revised.
                                                     4
                                            Audit of NRC’s High-Level Waste Program



HLW Criteria

The NWPA delineates NRC’s role in reviewing and either approving
or disapproving a DOE license application for a HLW geologic
repository Yucca Mountain. Specifically, the NWPA requires that
NRC

•   establish technical requirements and criteria that it will apply in
    approving or disapproving the licensing of a repository, and

•   provide timely and complete information with respect to
    licensing and regulating the repository to the Governor and
    legislature of the affected state and the governing body of
    affected Indian tribes.

Disposal of High-Level Radioactive Wastes in a Geologic
Repository at Yucca Mountain, Nevada, 10 CFR 63, prescribes the
rules governing the licensing of DOE to receive and possess HLW
nuclear material at a geologic repository operation sited at Yucca
Mountain, Nevada. Part 63 also sets forth the rules that will be
followed for site characterization and licensing, as well as pre- and
post-closure activities.




     The excavation and development facilities at Yucca Mountain.
                                5
                                     Audit of NRC’s High-Level Waste Program



Implementation

To provide guidance for NRC staff to evaluate a DOE license
application for the proposed geologic repository, the agency
developed the Yucca Mountain Review Plan. The principal
purpose of the Yucca Mountain Review Plan is to ensure the
quality, uniformity, and consistency of NRC’s staff reviews of the
license application. In March 2002, NRC made the draft Yucca
Mountain Review Plan available for public comment. In July 2003,
the agency published the Final Yucca Mountain Review Plan that
reflects revisions to address the comments received, as
appropriate.

NRC identified nine key technical issues (KTIs), originally key
technical uncertainties, to help enable an efficient licensing
process. The KTIs are principal issue areas divided into 293
agreements that were initially identified to help focus DOE’s pre-
license application efforts on matters central to development of its
application. NRC expects DOE to address these issues for any
geologic repository license application that it submits for Yucca
Mountain. NRC created KTIs in accordance with the NWPA’s
requirement that DOE and NRC interact before DOE submits its
license application.

In further support of processing DOE’s license application, NRC
hired a contractor to develop a Yucca Mountain Licensing Review
Project Plan. The contractor provided a draft plan to NRC staff for
review with a final version due in February 2005. The Yucca
Mountain Licensing Review Project Plan outlines how NRC will
conduct key elements of its project. The Plan includes written
procedures as well as electronic tools and organizational
commitments to reach NRC’s goal of achieving best project
management practices resulting in a better, quality-focused project.

In 1987, to provide technical assistance for the HLW program, NRC
established the Center for Nuclear Waste Regulatory Analyses
(CNWRA), a federally funded research and development center.
The CNWRA is focused on addressing regulatory and technical
matters specific to the proposed Yucca Mountain repository. NRC
categorizes the Center’s work as technical assistance — the
expertise of the CNWRA staff is to complement the technical
capabilities of the NMSS staff.




                           6
                                        Audit of NRC’s High-Level Waste Program



    Meeting Pre-Licensing Statutory Requirements

    NRC’s HLW program is positioned to meet NWPA pre-licensing
    requirements through the promulgation and implementation of 10
    CFR 63 and its internal guidance. The agency developed guidance
    to evaluate the license application, instituted controls to track
    technical issues, and acquired technical assistance for the HLW
    program.

B. HLW COMMUNICATIONS NEED IMPROVEMENT

    While NRC has made strides in the communications area, its HLW
    communications (both internal and external) are not well
    coordinated across the agency. NRC’s Principles of Good
    Regulation, management directives, strategic plan, and
    communication plan guidance illustrate standards for agencywide
    communications. Furthermore, NRC has taken steps to improve its
    communications through the implementation of various
    communication activities. However, office roles and responsibilities
    are not clear — particularly in the HLW communications area. As
    such, stakeholders perceive NRC as not always being clear and
    open. Because the agency’s HLW communications lack a holistic
    approach, NRC faces an increased risk of declining public
    confidence.

    Communication Standards

    NRC staff established the Principles of Good Regulation to serve
    as the framework for the development of standards of performance
    and professionalism within the agency. NRC uses these principles
    to guide its decision-making and behavior. To this end, NRC
    strives for good regulation through the application of independence,
    openness, efficiency, clarity, and reliability in its regulatory
    activities, decision-making, operations, and planning processes.
    (See Appendix B for a detailed description of the Principles of Good
    Regulation.)

    NRC management directives specify policy, objectives,
    responsibilities, authorities, and other requirements in specific
    functional areas. More specifically, certain directives contain
    statements of organization and functions of NRC offices and
    regions, and are a means by which functions may be assigned and
    authority delegated to office directors and regional administrators.
    Because NRC’s pre-licensing activities in preparation for a DOE
    license application span across the agency, the relevant policies,
    objectives, and responsibilities are found in several different
    management directives (MD).

                               7
                                                              Audit of NRC’s High-Level Waste Program



                 NRC’s Strategic Plan describes its mission and establishes the
                 Commission’s strategic direction by defining the vision, goals, and
                 outcomes NRC intends to pursue. One goal is to ensure openness
                 in NRC’s regulatory process. The plan states —

                         The NRC believes in the importance of transparency
                         in its communications, as well as early and
                         meaningful public involvement in the regulatory
                         process. The agency is committed to keeping the
                         public informed and believes that a responsible and
                         effective regulatory process includes an involved
                         public that is well informed.

                 NRC maintains an intranet site for information on internal and
                 external agencywide communication initiatives. One item
                 contained on this site is dedicated to communication plan guidance.
                 This guidance describes a communication plan as —

                         . . . the key messages and the methods for
                         communicating a project or event with NRC’s
                         stakeholders. The primary objective of a
                         communication plan is to deliver a consistent
                         and accurate message about the project or
                         event to all stakeholders in a timely fashion.
                         Effective communications are instrumental in
                         building and maintaining an environment in
                         which safety, technical excellence, teamwork,
                         creativity and continuous improvement are
                         paramount.

                 Additionally, the guidance notes that while a communication plan
                 does not have to be developed for every NRC activity, one should
                 be developed when an NRC project or event is controversial or
                 visible and could provoke a significant reaction from stakeholders.

                 Communication Activities

                 With a focus on improving agencywide communications, the
                 Chairman established a task force6 in June 2003 to evaluate NRC’s
                 public communications and provide strategies for enhancing
                 communications at all levels of the agency. The task force
                 concluded that NRC needs to substantially improve its
                 communications with many stakeholder groups and its use of key
                 communication tools. The task force proposed ten


6
 The task force was chaired by a Commissioner with membership consisting of agency staff members from
various offices, including the team leader of the NMSS Public Outreach Team.
                                                  8
                                                                Audit of NRC’s High-Level Waste Program



                   recommendations that covered topics such as the need for an
                   agencywide communications plan, an increased role for the Office
                   of Public Affairs (OPA), and community outreach efforts.

                   As a result of an OIG safety culture and climate survey,7 NRC
                   established a Communications Council. Responses to the safety
                   culture and climate survey indicated that less than half of NRC
                   employees felt that the agency does an excellent job of keeping
                   employees informed about matters affecting the NRC. Therefore,
                   the Executive Director for Operations established the
                   Communications Council to plan, coordinate, and implement NRC
                   internal communications strategies, and share best practices that
                   add value across the agency.

                   In August 2003, the Chairman established the Director of
                   Communications position to provide leadership and direction for
                   external communications with the public, the media, and the
                   Congress in support of the agency’s strategic goals. In April 2004,
                   NRC filled the position, which reports directly to the Chairman.
                   While the newly appointed Director is involved in communications
                   and is planning to initiate outreach efforts, he is not directly involved
                   with discussions relating to HLW. However, the Director said NRC
                   needs to take a look at the transition from its pre-licensing role to its
                   role as a regulator.

                   The Director of Communications noted that he is moving to
                   establish a comprehensive plan that is tied to the agency’s strategic
                   plan. Further, he would like to take communications to another
                   level and educate NRC offices about the role the agency plays in
                   upholding a unified effort to the public. He qualified that, while
                   agency communications are “not bad," NRC staff have a tendency
                   to simply respond to questions. He would rather see staff informing
                   and educating the public of NRC's role and not just taking a position
                   on the nuclear industry.

                   Through its organizational structure, NRC took steps to enhance
                   the integration of the HLW program. For example, in 2001, NRC
                   chartered a HLW Information Support Program Executive Steering
                   Committee as a forum to exchange information covering both
                   adjudicatory and programmatic HLW licensing process and system
                   activities. In March 2003, in an effort to assure the integration of all
                   programmatic and information technology/information management
                   elements necessary to support the HLW licensing process and
                   system, NRC established the position of High Level Waste
                   Business and Program Integration Staff (Integrator). This position


7
    OIG-03-A-03, OIG 2002 Survey of NRC’s Safety Culture and Climate, issued December 11, 2002.
                                                    9
                                                                Audit of NRC’s High-Level Waste Program



                 initially resided in NMSS8 with a responsibility to coordinate with
                 other agency offices to ensure the completeness of HLW business
                 needs. Further, the Integrator was to ensure that the business
                 needs are defined and understood, and that systems exist (or will
                 exist) to meet those needs. In March 2004, the agency reorganized
                 NMSS and established the Division of High Level Waste Repository
                 Safety to provide focus and management attention on its HLW
                 program and develop a comprehensive licensing program for the
                 nation’s HLW repository.

                 In an effort to ensure openness and to foster public confidence in
                 NRC’s commitment to carry out HLW licensing and regulatory
                 responsibilities, NMSS established a Public Outreach Team.
                 NMSS documented the formation of the Public Outreach Team in
                 its HLW communication plan. The Team is active in making
                 presentations and holding public meetings in Nevada, but it does
                 not have a formal charter and staff serves on the team as a
                 collateral duty.

                 The NMSS Public Outreach Team was involved with the two
                 workshops NRC had with Native American Tribal Governments
                 regarding HLW. In 2001, the Public Outreach Team took the lead
                 for the first workshop, which was attended by an NRC
                 Commissioner. Based on the first workshop, the tribes wanted
                 more information. In response, NRC staff developed and held a
                 workshop in 2003 to provide background information on HLW.
                 The agency currently has no plans for additional workshops with
                 the Tribal Governments.

                 The Public Outreach Team has held various meetings over the past
                 several years. For example, in June 2003, the Team held a
                 meeting in Tecopa, California that was scheduled for 2 hours but
                 lasted twice that long. While many Tecopa residents were still
                 skeptical, they expressed their gratitude for the meeting. More
                 recently, the Public Outreach Team conducted a workshop for the
                 affected units of local government that resulted in positive
                 feedback.




8
  In August 2004, the HLW Business and Program Integration Staff position was moved to the Office of the
Chief Information Officer with a continued focus on the information technology/information management
elements.
                                                   10
                                                                    Audit of NRC’s High-Level Waste Program



                  Roles and Responsibilities

                  NRC’s pre-licensing HLW activities span the agency. NMSS has
                  the lead for the HLW program and other agency offices have
                  different levels of involvement, focus, and responsibility relating to
                  the program. As NRC becomes involved in the associated hearing
                  process, separation of functions regulations (i.e., keeping an arms
                  length distance) may impact how the different agency offices carry
                  out their roles.

                  Per MD 9.15, the Office of State and Tribal Programs (STP) is
                  charged with working cooperatively with Federal, State, and Tribal
                  Governments through its liaison program to maintain effective
                  relations and communications — yet NMSS is taking the lead for
                  communications with Tribal Governments. In April 2000, NRC
                  announced that the Commission designated STP to serve as the
                  first point of contact with Tribal Governments, as well as have the
                  responsibility for development and implementation of policies on
                  cooperation with State and Tribal Governments. According to the
                  agency announcement, this designation was made because Tribal
                  Government interest had increased in multiple areas where NRC
                  regulates, namely HLW transportation and disposal. The
                  announcement also stated that the STP name change9 was not
                  intended to affect existing relationships and communications
                  between NRC program offices and States and Tribes on specific
                  technical issues. An STP official stated that in 1993, responsibility
                  for State, local and Tribal interactions involving HLW and Yucca
                  Mountain was transferred to NMSS, including one full time
                  equivalent. Therefore, STP officials view STP’s role in the HLW
                  program as supportive because historically NMSS had the lead for
                  interactions with State, local, and Tribal Governments regarding the
                  proposed repository at Yucca Mountain. STP officials cited STP’s
                  role for the two tribal workshops as an example of the supportive
                  role it provides. However, the Public Outreach Team expected
                  STP to be the driver regarding relations and communications with
                  the Tribal Governments.

                  STP has taken some steps to promote agency communications
                  with Tribal Governments. In October 2001, the office created a list
                  server10 to share communications of interest for Tribes, such as
                  press releases and information on public meetings. STP identified
                  representatives from Tribal Governments to receive this information
                  via the Internet. Currently, there are 39 subscribers to the Tribal list
                  server — 8 are NRC subscribers and 31 subscribers are
9
  Prior to becoming the Office of State and Tribal Programs, the office was called the Office of State
Programs.
10
   A list server is the hardware and software for operating a system that serves as a repository for electronic
messages that can be accessed by multiple users, either automatically or on-demand.
                                                      11
                                     Audit of NRC’s High-Level Waste Program



representatives of Native American Tribes. Further, STP officials
advised that they are trying to be proactive in communicating
information to Tribal Governments by drafting a new strategy that
will have elements of a communication plan. Currently, STP’s new
strategy has been slow to progress due to other, more pressing
needs.

Per MD 9.11, OPA is responsible for developing and administering
agencywide policies and programs that inform the public and the
news media of NRC’s policies, programs, and activities, and inform
NRC management of media coverage on activities that interest the
agency. OPA officials stated that in general their responsibilities
include counseling, training, public meetings, outreach planning,
and press releases. Yet, OPA officials believe that they have no
role during the pre-license application process beyond preparing
press releases (which must be approved by the Chairman before
issuance). OPA officials also noted that while they look at
communication plans, they do not help develop such plans. They
also try to attend public meetings regarding HLW, but did not attend
the Tribal workshops.

While the Public Outreach Team’s objective is to ensure openness
and foster public confidence, the Office of the General Counsel
(OGC) expressed concerns and reservations about NRC’s public
outreach actions taking place at the same time the agency is
preparing for mandated hearings associated with the licensing
process. As highlighted in NRC’s strategic plan and Principles of
Good Regulation, an agency goal is to ensure openness in its
regulatory process. Moreover, the NWPA requires NRC to provide
timely and complete information with respect to licensing and
regulating the repository to the Governor and legislature of affected
states and the governing body of affected Indian tribes. At the
same time, the Commission’s regulations establish a structured and
formal decisionmaking and hearing process associated with the
licensing of a facility. Thus, a senior OGC official is concerned that
continuing outreach activities as the agency transitions into its
formal license review and hearing process can adversely affect the
agency’s credibility. The OGC official believes that public outreach
presentations and discussions can be misconstrued as the staff’s
positions and potentially undermine the effectiveness of its case
during the formal hearing process. OGC believes that unless the
foregoing concerns can be accommodated in the agency staff’s
outreach activities, OGC recommends against continuing outreach
activities as the agency moves into the more formal license review
and hearing process. Further, OGC believes that public outreach
should be terminated once the formal hearing process is initiated.



                          12
                                                                   Audit of NRC’s High-Level Waste Program



                    NRC must also ensure that the adjudicatory staff working for the
                    Commission and the Atomic Safety and Licensing Board Panel
                    (ASLBP) keep an “arms length” from those individuals involved in
                    the formal license review and hearing process. 11 That is, observe
                    the required separation of functions rule.12 A senior NRC official
                    stated that while the agency has the separation of functions rule in
                    place to guide NRC staff conduct in this area, NRC also has
                    experience in ensuring independence between these groups.
                    Further, the Commission created an independent group to serve as
                    its technical advisors should a matter in adjudication come before
                    the Commission. Nevertheless, not all NRC officials are clear on
                    when NRC will begin operating in this mode. While the agency
                    must ensure the separation of functions between the staff reviewing
                    the license application and the adjudicatory staff, other agency
                    support offices will still be involved with both sides. See Figure 2
                    for a depiction of how the agency should operate during the formal
                    license review and hearing process.

                    Figure 2

                                                    Commission




                                                                                     Financial Officer/Office of State and Tribal Programs/
                                                                                     Affairs/ Office of Administration/Office of the Chief
                         Appeals
                         Process




                                             (Office of the Secretary; Office of
                                           Commission Appellate Adjudication;



                                                                                     Office of Public Affairs/Office of Congressional
                                                 Office of General Counsel
                                           [Commission Adjudicatory Technical
                                            Support Program and Commission
                                                          Counsel])
                                           Atomic Safety and Licensing
                                                                                     Office of Chief Information Officer
                                                   Board Panel
                         Hearing Process




                                             Separation of Functions
                                                  Requirements
                                             NRC Staff and Office of
                                              General Counsel (Staff
                                                    Counsel)
                                            (License Application Review and
                                            Development of Safety Evaluation
                                                       Report)


                      Source: Office of the General Counsel, NRC




11
     The staff conducting the formal license review are in NMSS.
12
     10 CFR 2.348, Separation of functions.
                                                         13
                                                                    Audit of NRC’s High-Level Waste Program



                    Instead of one HLW agencywide communication plan guiding these
                    agency offices, NRC has multiple communication plans related to
                    the HLW program. NRC’s communication plan guidance
                    recommends that a communication plan be developed for
                    controversial or visible projects or events. Yet, a number of
                    communication plans that relate to specific aspects of the HLW
                    program exist across the agency.

                    Stakeholder Perceptions

                    Many stakeholders agree that NRC’s HLW communications have
                    improved over the years; however, some still feel that NRC is
                    withholding information and not making enough effort to help the
                    public understand the complexities of the proposed repository.
                    Several stakeholders believe that in the beginning of the HLW
                    program, NRC was unprepared and somewhat hostile in its public
                    relations. Some stakeholders find that the agency has since
                    learned to engage the public and keep them informed. Other
                    stakeholders believe that NRC is still not always sharing
                    information or making enough effort to explain the complexities of
                    the proposed repository. In particular, some Native American
                    Tribe members believe that NRC is not showing enough interest in
                    tribal issues.

                    While NRC staff has conducted a number of public meetings, some
                    stakeholders view NRC as an unfair regulator because NRC staff
                    had closed meetings13 with DOE regarding the “audit” of three DOE
                    analysis model reports. The meetings between NRC staff and DOE
                    were announced, and the entrance and exit interviews were initially
                    open to the public and then closed. Stakeholders referred to these
                    meetings as the “secret meetings.” While OIG investigators found
                    that these meetings were appropriately closed, it does not change
                    stakeholders’ perceptions regarding this apparent lapse in effective
                    communication.

                    Stakeholders find NRC’s language regarding the KTIs to be
                    ambiguous. Many stakeholders believe that NRC is changing what
                    it expects of DOE regarding the resolution of the KTIs. According
                    to stakeholders, initially the KTIs were supposed to be complete at
                    the time of the license application. Stakeholders believe this has
                    been amended by DOE to say that the KTIs must all be addressed
                    before DOE submits its license application. Stakeholders view this
                    as a sign of NRC bowing under the pressure that is being put on
                    them by DOE. NRC officials contend that the agency has not


13
     Closed meetings are meetings that due to the subject matter are not open to the public.
                                                       14
                                     Audit of NRC’s High-Level Waste Program



changed its expectations for the KTIs. Historic agency
documentation supports this assertion. However, this message has
not been clearly shared with stakeholders.

Stakeholders are not clear when NRC will assume its
congressionally mandated regulatory role. In accordance with the
NWPA, NRC is serving in a consultative role with DOE during the
pre-license application phase. Once DOE submits its license
application, NRC will need to assume the formal role of regulator.
Yet, stakeholders are concerned that the consultation phase will
continue throughout the licensing process, which would adversely
affect the quality of NRC’s independent oversight. Some
stakeholders believe that NRC will do what DOE commands and
that DOE will force an application on NRC and control the
momentum of the process. A senior NRC official stated that NRC
will not automatically accept the license application.

HLW Communications Need Improvement

NRC’s HLW communications are not always effective because the
agency lacks a holistic approach. The management directives that
specify relevant policies, objectives, and responsibilities are out of
date — adding to the situation of unclear roles regarding the HLW
program. The purposes of various public outreach efforts and the
role of the hearing process must be understood both internally and
externally. Until then, NMSS and OGC will continue to struggle
over their conflicting objectives regarding public outreach. In
addition, multiple communication plans related to the HLW program
make it difficult to identify which aspects of the program are being
covered and which aspects are not being covered. Overall, NRC
lacks systematic communication between the offices.

Stakeholders do not always perceive NRC as being clear and open
with its HLW communications. NRC lacks an agencywide HLW
communications plan. The agency’s communication strategies and
activities, as well as dedicated resources for successfully carrying
out these strategies and activities are not documented in one place.
Furthermore, there is not always input and buy-in from all agency
offices involved with NRC’s HLW communications.

Without a single agencywide HLW communication plan, NRC faces
an increased risk of public confidence declining. As public
confidence declines, the potential increases for additional agency
resources to be consumed. The consequence of unclear
communications could complicate the hearing process and further
distract from NRC’s focus on the technical issues surrounding the
license application.

                           15
                                              Audit of NRC’s High-Level Waste Program



    Recommendation

         OIG recommends that the Executive Director for Operations —

         1.     Develop and implement a single agencywide HLW
                communication plan.

    C. HLW PROGRAM FACES EXTERNAL UNCERTAINTIES

         NRC faces external uncertainties beyond its control that may
         impact the staff’s review of DOE’s license application. Specifically,
         a court ruling vacated an Environmental Protection Agency
         10,000-year compliance period standard. Consequently, NRC will
         have to revise its regulations when the Environmental Protection
         Agency issues its new standard.

         Further, an Atomic Safety and Licensing Board ruling struck DOE's
         certification that it made available all DOE documentary material on
         its proposed Yucca Mountain HLW repository. DOE's certification
         has an important impact on the overall licensing schedule as it
         starts the 6-month clock for the earliest date when NRC can docket
         DOE's license application. DOE currently projects that it will
         resubmit its certification in spring 2005.

         During this period of uncertainty, effective internal and external
         communications are essential for NRC keeping itself properly
         positioned to receive, review, and make a decision on DOE’s
         license application.


IV. SUMMARY AND CONCLUSION

         NRC has taken steps to ensure that it is properly prepared to
         receive DOE’s license application. The agency has developed and
         continues to develop guidance documents in accordance with the
         NWPA. Yet, the agency’s HLW communications are lacking
         because NRC does not have a single agencywide HLW
         communication plan. In addition, NRC faces external uncertainties
         beyond its control that may impact the staff’s review of DOE’s
         license application. While operating in this environment of
         uncertainties, it is critical that NRC's communications are
         deliberate, open, clear, and independent.




                                    16
                                           Audit of NRC’s High-Level Waste Program



V. AGENCY COMENTS

   On February 1, 2005, the Executive Director for Operations basically
   agreed with OIG’s recommendation and provided comments concerning
   the draft audit report. OIG modified the report as we determined
   appropriate in response to these comments. Appendix C contains the
   Executive Director’s for Operations transmittal memorandum and
   comments on this report. Appendix D contains OIG’s specific responses
   to the comments.




                                  17
                     Audit of NRC’s High-Level Waste Program




[Page intentionally left blank.]




           18
                                           Audit of NRC’s High-Level Waste Program


                                                                     APPENDIX A


SCOPE AND METHODOLOGY

       OIG initiated this audit to determine the status of NRC’s HLW
       program in relation to DOE’s projected date for submitting a license
       application to the agency for initiating construction of the proposed
       HLW repository at Yucca Mountain. Specifically, OIG planned to
       determine if NRC was sufficiently positioned to meet the 3 to 4-year
       deadline for making a licensing decision as imposed by the NWPA,
       as amended. However, in order to report useful information in a
       timely manner, OIG limited the scope of this audit to determine if
       NRC is properly prepared to meet its pre-licensing statutory
       requirements per the NWPA. OIG plans to conduct a future audit of
       NRC’s HLW program to determine if the agency is sufficiently
       positioned to evaluate and approve or disapprove the license
       application within the 3 to 4-year NWPA timeframe.

       In order to fulfill its objective, the OIG audit team toured Yucca
       Mountain and the surrounding area. While in Nevada, auditors
       interviewed representatives from affected units of government —
       including the State of Nevada. The audit team also met with Native
       American representatives, specifically members of the Timbisha
       Shoshone and Western Shoshone, and private citizen groups.
       Auditors interviewed DOE managers and NRC staff and managers
       involved with the HLW program. These meetings provided auditors
       with a well-rounded concept of the different perceptions regarding
       the proposed HLW repository at Yucca Mountain.

       Additionally, the audit team reviewed and analyzed Federal
       legislation and regulations to determine NRC’s compliance with
       these requirements. Auditors monitored current events associated
       with Yucca Mountain. The audit team also conducted reviews of
       agency communication plans and other documents related to the
       Yucca Mountain project.

       This audit was conducted in accordance with generally accepted
       Government auditing standards and included a review of
       management controls related to the objective of this audit. This
       audit was conducted from May 2004 to November 2004.

       Major contributors to this report are Russell Irish, Senior Level
       Assistant for Audit Operations; Sherri Miotla, Audit Manager; Yvette
       Russell, Senior Auditor; Debra Lipkey, Senior Management
       Analyst; Andrew Blanco, Engineer; Jerrol Sullivan, Management
       Analyst; and Matthew Dennis, Summer Intern.


                                 19
                         Audit of NRC’s High-Level Waste Program




[Page intentionally left blank.]




              20
                                                 Audit of NRC’s High-Level Waste Program


                                                                           APPENDIX B


PRINCIPLES OF GOOD REGULATION

Independence – Nothing but the highest possible standards of ethical
performance and professionalism should influence regulation. However,
independence does not imply isolation. All available facts and opinions must be
sought openly from licensees and other interested members of the public. The
many and possibly conflicting public interests involved must be considered.
Final decisions must be based on objective, unbiased assessments of all
information and must be documented with reasons explicitly stated.
Openness – Nuclear regulation is the public’s business and it must be
transacted publicly and candidly. The public must be informed about and have
the opportunity to participate in the regulatory process as required by law. Open
channels of communication must be maintained with Congress, other
Government agencies, licensees, and the public, as well as with the international
nuclear community.
Efficiency – The American taxpayer, the rate-paying consumer, and licensees
are all entitled to the best possible management and administration of regulatory
activities. The highest technical and managerial competence is required and
must be a constant agency goal. NRC must establish means to evaluate and
continually upgrade its regulatory capabilities. Regulatory activities should be
consistent with the degree of risk reduction they achieve. Where several
effective alternatives are available, the option which minimizes the use of
resources should be adopted. Regulatory decisions should be made without
undue delay.
Clarity – Regulations should be coherent, logical, and practical. There should
be a clear nexus between regulations and agency goals and objectives, whether
explicitly or implicitly stated. Agency positions should be readily understood and
easily applied.
Reliability – Regulations should be based on the best available knowledge from
research and operational experience. Systems interactions, technological
uncertainties, and the diversity of licensees and regulatory activities must all be
taken into account so that risks are maintained at an acceptably low level. Once
established, regulation should be perceived to be reliable and not unjustifiably in
a state of transition. Regulatory actions should always be fully consistent with
written regulations and should be promptly, fairly, and decisively administered so
as to lend stability to the nuclear operational and planning processes.




                                       21
                         Audit of NRC’s High-Level Waste Program




[Page intentionally left blank.]




              22
                              Audit of NRC’s High-Level Waste Program


                                                        APPENDIX C



AGENCY FORMAL COMMENTS




                         23
     Audit of NRC’s High-Level Waste Program




24
     Audit of NRC’s High-Level Waste Program




25
     Audit of NRC’s High-Level Waste Program




26
     Audit of NRC’s High-Level Waste Program




27
                         Audit of NRC’s High-Level Waste Program




[Page intentionally left blank.]




              28
                                                    Audit of NRC’s High-Level Waste Program


                                     APPENDIX D

DETAILED OIG ANALYSIS OF COMMENTS

At an exit conference on December 15, 2004, NRC provided informal, written
comments on the draft HLW report. OIG incorporated the suggestions as
appropriate. On February 1, 2005, NRC provided formal written comments on
the draft HLW report (see Appendix C), which in several cases were contrary to
the comments it provided at the exit conference.

Note: The page numbers used in NRC’s Comments do not correspond with the
page numbers in this report because the draft report was double-spaced and this
final report is single-spaced. Therefore, the correct page numbers are stated, in
bold, before each comment.

NRC Comment 1 (Page 2 of report)
On page 3, line 11, delete “radiation protection standard” and substitute
“generally applicable standards for protection of the general environment from
offsite releases” to better track the Nuclear Waste Policy Act (NWPA).

OIG Response
Wording changed as suggested.


NRC Comment 2 (Page 4 of report)

On page 5, Section III, in the first sentence (“While NRC. . .”), delete “is prepared
to meet its pre-licensing statutory responsibilities per the NWPA,” and substitute
“has been carrying out its prelicensing responsibilities.”

OIG Response
Wording changed as suggested.


NRC Comment 3 (Page 4 of report)

Also on page 5, third sentence under Section III, “Findings,” add “agency-wide”
so the sentence reads: “. . .because NRC lacks a holistic, agency-wide
communications approach.”




                                         29
                                                    Audit of NRC’s High-Level Waste Program




OIG Response
Wording changed as suggested.


NRC Comment 4 (Page 4 of report)

On pages 5-6, under subsection A, in the second sentence, strike “pre-licensing.”

OIG Response
Wording changed as suggested.


NRC Comment 5 (Page 6 of report)

On page 7, second paragraph, correct the description of the purpose of the key
technical issues (KTIs) and the KTI agreements to read:

NRC put into place identified nine key technical issues (KTIs), originally key
technical uncertainties, to help enable an efficient licensing process and
encourage development of a high-quality license application. These issues
provided a framework for development of NRC’s Yucca Mountain Review Plan
(YMRP) and, eventually, for development of NRC’s Safety Evaluation Report.
NRC entered into 293 agreements concerning the KTIs with DOE, to focus
NRC’s pre-licensing interactions with DOE The KTI’s are 9 principal issue areas
divided into 293 agreements that were initially identified to help focus DOE’s pre-
licensing application efforts on matters central to development of its application.
NRC expects DOE must to address these issues for agreements in any geologic
repository license application that it submits for Yucca Mountain.

OIG Response
OIG’s discussion of the KTIs is to give the agency credit for actions taken to help
ensure an efficient licensing process. While KTI data may be used in other
related applications, OIG did not seek out this information during its audit as it is
not significant to the objective of the report. Therefore, except for minor edits,
the text remains unchanged.


NRC Comment 6 (Page 6 of report)

On page 8, correct the first two sentences of first paragraph to read:

In further support of processing DOE’s license application, NRC developed, with
contractor support, hired a contractor to develop a Yucca Mountain Licensing


                                         30
                                                  Audit of NRC’s High-Level Waste Program



Review Project Plan. The contractor has provided a draft plan to the NRC staff
agency for review with a final version. . .


OIG Response
According to the statement of work for the Development of a High-level Waste
Licensing Program Project Plan, “The Contractor shall develop a project plan to
support project planning, implementation, execution and closeout. At a
minimum, the project plan should be built using industry and NRC best practices.
. .” Thus, the statement of work shows that the contractor was hired to develop
the Plan. Therefore, except for minor edits, the text remains unchanged.


NRC Comment 7 (Page 8 of report)

On page 11, in the section entitled “Communication Activities,” the report should
acknowledge that the head of the HLW public outreach team served on the
Chairman’s task force, and contributed to the cited recommendations. The fact
that NRC’s HLW staff was asked to serve on this task force was due, in large
measure, to the improvements brought about in the HLW communications area.

OIG Response
Footnote added to show that the team leader of the NMSS Public Outreach
Team was a member of the Chairman’s task force.


NRC Comment 8 (Page 10 of report)

On page 14, change the second paragraph to read:

. . .Commissioner. Based on the first workshop, the tribes wanted more
information. and in 2003, the tribes invited NRC back for In response, NRC staff
developed and held a workshop in 2003 to provide background information on
HLW further training. The agency. . .

OIG Response
Wording changed as suggested.


NRC Comment 9 (Page 11 of report)

On page 15, beginning with line 19, revise to read:

. . .An STP official stated that as a result in 1993, responsibility for State and
Tribal interactions involving HLW and Yucca Mountain was transferred to NMSS,

                                        31
                                                      Audit of NRC’s High-Level Waste Program



including one Full Time Equivalentcy. was given to NMSS so that NMSS would
have a Tribal Liaison for the Tribes that could be affected by NRC’s HLW
program. The official stated that the transfer of the Full Time Equivalency was
the documentation of the agreement that NMSS would take the lead with Tribal
Governments on HLW issues. Therefore, STP officials stated that viewed STP’s
has no direct role in the HLW program as supportive because historically, NMSS
has had the lead for interactions with State, local, and Tribal Governments
regarding the proposed repository at Yucca Mountain. STP officials cited STP’s
support for the two tribal workshops as an example. However, The Public
Outreach Team expected STP to continue to be the driver regarding overall
relations and communications with the Tribal Governments. . .

OIG Response
Wording basically changed as suggested, with a few minor edits.


NRC Comment 10 (Page 12 of report)

On page 16, the draft report indicates says [sic] that Office of Public Affairs
(OPA) officials believe they have no role during the pre-license application
process beyond preparing press releases. However, OPA has stated that its role
for high-level waste, as for all agency activities, includes continuously responding
to reporter requests, made by phone, e-mail, or other means, and alerting
reporters to agency actions and activities, in addition to answering questions
from the public. OPA has written a fact sheet on the high-level waste licensing
process that is now posted on the agency’s web site. It also has helped staff
prepare for public meetings.

OIG Response
During an interview with members of the OIG audit team, OPA officials clearly
stated that OPA has “no role” during the prelicensing process. However, OPA
officials did provide a list of the office’s general responsibilities. Text listing these
general responsibilities has been added to the report.


NRC Comment 11 (General comment, no specific page in the report)

OIG in its report fails to recognize that the role of OPA will increase exponentially
when a license application is received and as the agency moves into the hearing
stage.




                                           32
                                                   Audit of NRC’s High-Level Waste Program




OIG Response
The Communications Director informed OIG, during an interview, that OPA’s
future role in the HLW area will be to continue taking care of the media. He did
not state that OPA’s role would increase exponentially. Further, OPA officials did
not express this idea of an exponentially increased role to OIG during their
interview. Therefore, the text remains unchanged.


NRC Comment 12 (Page 12 of report)

On page 16, second full paragraph, line 5, delete “statutorily” between “for” and
“mandated.” The Commission determined that a hearing was called for in the
public interest; it is not explicitly addressed in the NWPA. Also in this paragraph,
on line 12, delete “the Atomic Energy Act establishes” and insert “the
Commission’s regulations establish.”

OIG Response
Wording changed as suggested.


NRC Comment 13 (Page 12 of report)

On page 17, the language in the top paragraph does not fully reflect our OGC’s
concerns regarding the continuation of outreach efforts. Thus, after the first full
sentence, strike “the OGC official” and insert:

In particular, OGC is concerned that continuing outreach activities can cause
confusion in the minds of the public with respect to the NRC’s decision making
process—informal outreach versus formal staff review and adjudication—and
create false expectations in regard to the public’s ability to influence agency
decisions through informal means. And while general discussion of the hearing
process and associated requirements has already been provided to various
audiences at a number of outreach sessions, detailed direction as to how the
requirements for formal participation can be satisfied cannot be given by the
agency. OGC is also concerned that limited resources—both staff and OGC—
not be distracted from the required formal review and adjudicatory processes to
conduct discretionary, informal outreach, especially in light of the very limited
timeframe for decision making specified in the NWPA. In addition, the OGC
official. . .

Also, change “construed” to “misconstrued.”

Delete the sentence beginning “As such. . .” and substitute:



                                         33
                                                   Audit of NRC’s High-Level Waste Program



Unless the foregoing concerns can be accommodated in the staff’s outreach
activities, OGC recommends against continuing outreach activities as the agency
moves into the more formal license review and hearing process, and, in any
event, terminating such activities once the formal hearing process is initiated.

In the second paragraph which starts on page 17, footnote 11 (from page 18)
should be moved up to the end of the second sentence. In the third sentence of
the same paragraph, substitute “accordance” for “addition” on page 18. Also on
page 18, in the fourth sentence of the paragraph, strike “. . .adjudicatory team
should a legal appeal be filed with. . .” and substitute “. . .technical advisors
should a matter in adjudication come before. . .”

OIG Response
While OIG appreciates OGC’s concerns and opinions, OIG cannot find evidence
to substantiate OGC’s statement that the agency’s HLW outreach program is an
informal process that can cause confusion in the minds of the public and create
false expectations in regard to the public’s ability to influence agency decisions
through informal means. A number of representatives from the affected units of
government advised OIG that they have a strong working relationship with NRC
and they want ongoing and regular meetings. Therefore, the text remains
unchanged.

Wording changed as suggested -- “construed” changed to “misconstrued.”

Because the text was not changed to reflect OGC’s first comment in this section
(see the first paragraph in this section), this comment is not relevant. Therefore,
the text remains unchanged.

As suggested, the footnote (which is now footnote 12 due to the addition of
footnote 6) was moved to after the second sentence. The third sentence has
been modified for clarification. Wording changed as suggested to the fourth
sentence.


NRC Comment 14 (Page 15 of report)

On page 21, improve the tone and balance of the report by changing the heading
“HLW Communications Are Lacking” to “HLW Communications Need Further
Improvement.”

OIG Response
Wording basically changed as suggested.




                                        34
                                                     Audit of NRC’s High-Level Waste Program



NRC Comment 15 (Page 15 of report)

Also, on page 21, the two sentences beginning “The purposes of various. . .” may
not capture the point. Internally, there is an understanding of both public
outreach efforts and the hearing process; the decision to continue public
outreach notwithstanding the not-insignificant downsides is a matter of policy and
discretion.

OIG Response
Wording modified for clarification. The language in the report goes to the heart of
OIG’s message -- agency policy (e.g., Strategic Plan, Principles of Good
Regulation) clearly sets the standard for NRC’s goal of openness. Therefore,
while NRC fulfills its openness goal through public outreach, it must also consider
its role in the hearing process. The staff and OGC need to realize the
importance of both efforts.


NRC Comment 16 (Page 16 of report)

On page 22, in the first sentence of Section C, “HLW Program Faces External
Uncertainties,” delete “agency’s ability to fulfill its role under the NWPA” and
substitute “potential submission of DOE’s application and the agency’s related
review.” Also, strike the next sentence, beginning “In recent months, . . .”

In the second paragraph, line 4, strike “extremely.”

OIG Response
Wording modified for clarification.


NRC Comment 17 (Page 16 of report)

On page 23, the point of the first full sentence (“In addition, NRC. . .”) is unclear.
The recent court decision may affect when DOE submits an application and the
timeframe for the NRC’s review, but it does not affect “the agency’s ability to fulfill
its responsibilities under the NWPA.”

OIG Response
Wording modified for clarification.




                                          35
